No.

IN THE
SUPREME COURT OF THE UNITED STATES

ROSEMARY GARITY-PETITIONER
v
USPS PMG BRENNAN-RESPONDANT

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court. I certify that the accompanying
't

Petition for Writ of Certiorari, which was prepared using century schoolbook 12point typeface, contains 8,987 words, excluding the parts of the document that are
exempted under Rule 33.1(d). This certificate was prepared in reliance on the word
count function of the word processing system (Microsoft Word 10) used to prepare
the document.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 17, 2021,

s/Rosemarv Garitv
Rosemary Garity

Received 1
AUG-2-3-2021

